No. ____________
_________________________________________________________

IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________

QDOS, INC.,

Petitioner,

v.
MATTHEW HAYDEN, ET AL.,

Respondent.

________________________________________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Ninth Circuit
________________________________________

APPENDIX FOR
PETITION FOR A WRIT OF CERTIORARI
________________________________________

DAMIAN D. CAPOZZOLA

Counsel of Record

TIMOTHY R. LAQUER
The Law Offices of Damian D. Capozzola
633 W. Fifth Street
26th Floor
Los Angeles, California 90071
(213) 533-4112
ddc@ddclaw.com
trl@ddclaw.com
________________________________________________

i
TABLE OF CONTENTS
Appendix A

In re QDOS, Inc., No. 19-60066 (9th Cir. 2020)

............................................................................. 1a

Appendix B

In re QDOS, Inc., No. 607 B.R. 338 (9th Cir. BAP

2019) .................................................................... 4a
Appendix C

In re QDOS, Inc., 591 B.R. 843 (Bankr. C.D. Cal.

2018) .................................................................. 27a

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
NOV 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
In re: QDOS, INC.,
Debtor,
----------QDOS, INC.
Appellant,
v.

No. 19-60066
BAP No. 18-1301
MEMORANDUM*

MATTHEW HAYDEN; et al.,
Appellees.

Appeal from the Ninth Circuit
Bankruptcy Appellate Panel
Taylor, Faris, and Spraker, Bankruptcy Judges,
Presiding

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

2a
Submitted November 18, 2020**
Pasadena, California
Before: RAWLINSON and HUNSAKER, Circuit
Judges, and ENGLAND,*** District Judge.
QDOS, Inc. (QDOS) appeals an order of the
Bankruptcy Appellate Panel (BAP) reversing the
bankruptcy court’s dismissal of the involuntary
bankruptcy petition filed against QDOS and
remanding for further proceedings.1 QDOS asserts
that the BAP’s order is a final, appealable order
because it alters the status quo and the rights of the
parties. We determine de novo whether we have
jurisdiction to consider an appeal from the BAP and
conclude that we lack jurisdiction in this case.
Gugliuzza v. FTC (In re Gugliuzza), 852 F.3d 884, 889
(9th Cir. 2017).
Only BAP orders that alter the status quo and
fix the “rights and obligations of the parties” are final,
appealable orders. Ritzen Grp., Inc. v. Jackson
Masonry, LLC, 140 S. Ct. 582, 588 (2020) (internal
quotation and citation omitted). Orders remanding a
case for additional substantive proceedings or “for
further fact-finding will rarely have this degree of
finality, unless the remand order is limited to
ministerial tasks.” In re Gugliuzza, 852 F.3d at 897.
The BAP remanded this matter for the
bankruptcy court to conduct further proceedings on
The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
**

*** The Honorable Morrison C. England, Jr., United States
District Judge for the Eastern District of California, sitting by
designation.

3a
key issues, including: (1) determining whether QDOS
can establish that 11 U.S.C. § 303(b)(1)’s numerosity
requirement applied: (2) allowing the petitioning
creditors to conduct discovery; and (3) affording other
creditors the opportunity to join the involuntary
petition.
The BAP’s decision may have altered the
existing state of affairs by reversing the bankruptcy
court’s dismissal of the involuntary petition and
remanding for further proceedings, but it did not “fix[]
the rights and obligations of the parties” as is
required for an order to be final under § 158(a). Ritzen
Grp., Inc., 140 S. Ct. at 588 (internal quotation and
citation omitted). Therefore, we lack jurisdiction, and
this appeal is
DISMISSED.

4a
Appendix B
UNITED STATES BANKRUPTCY APPELLATE
PANEL OF THE NINTH CIRCUIT
FILED
NOV 7 2019
SUSAN M. SPRAUL, CLERK
U.S. BKCY. APP. PANEL
OF THE NINTH CIRCUIT
In re:
QDOS, INC.,

Debtor,
MATTHEW HAYDEN;
FELICE TERRIGNO; JIM
MADDOX; CARL WIESE,
as trustee for the Wiese
Family Trust dated as of
October 31, 2013.
Appellants,
v.
QDOS, INC.,

BAP No. CC-181301-TaFS
Bk. No.
8:18-bk11997-MW
OPINION

Appellee.

Argued and Submitted on September 26, 2019
at Pasadena, California
Filed – November 7, 2019
Appeal from the United States Bankruptcy Court for
the Central District of California

5a
Honorable Mark S. Wallace, Bankruptcy Judge,
Presiding
Appearances:
Patrick Costello of Vectis Law
Group argued for appellants;
Damian Capozzola of The Law
Offices of Damian D. Capozzola
argued for appellee.
Before:
TAYLOR,
FARIS,
and
SPRAKER,
Bankruptcy Judges.
TAYLOR, Bankruptcy Judge:
INTRODUCTION
Matthew Hayden, Felice Terrigno, Jim
Maddox, and the Wiese Family Trust (“Petitioning
Creditors”) sought to place QDOS, Inc. (“QDOS”) into
an involuntary chapter 11 proceeding.1 QDOS sought
dismissal through a Civil Rule 12(b)(6) motion based
on the assertion that none of the Petitioning Creditors
were qualified to file the involuntary petition and,
thus, the numerosity requirement of 11 U.S.C. §
303(b) was not met. The bankruptcy court recognized
that the issue could not be resolved through a
dismissal motion or other summary adjudication and
held a trial. And because it determined that Mr.
Terrigno was an investor, not a creditor, and because
Mr. Maddox failed to appear, it agreed with QDOS
and dismissed the petition.
Petitioning Creditors appeal. They do not
dispute the disqualification of Mr. Terrigno. Nor do
they adequately dispute the bankruptcy court’s
Unless specified otherwise, all chapter and section references
are to the Bankruptcy Code, 11 U.S.C. §§ 101–1532, all “Rule”
references are to the Federal Rules of Bankruptcy Procedure,
and all “Civil Rule” references are to the Federal Rules of Civil
Procedure.

1

6a
conclusion that Mr. Maddox failed to satisfy his
burden of proof that he qualified as a petitioning
creditor. All that said, we conclude that the
bankruptcy court erred.
Under controlling Ninth Circuit law and the
facts of this case, all creditors had the right to
consider whether to join in the involuntary petition.
But the bankruptcy court did not require QDOS to file
an answer and the list of creditors required by Rule
1003(b) once it determined that triable issues existed.
And it neither required Civil Rule 26 disclosures nor
permitted discovery that would have otherwise
allowed the Petitioning Creditors to give the required
notice to creditors. The record reflects that QDOS’s
alleged 40 to 50 creditors had no reasonable
opportunity to join in the involuntary petition.
Dismissal based solely on an insufficiency in the
number of petitioning creditors, thus, was error.
Therefore, we REVERSE and REMAND for
further proceedings.
FACTS
In May 2018, Carl Wiese (as trustee of the
Wiese Family Trust dated as of October 31, 2013),
Matthew Hayden, and Felice Terrigno filed an
involuntary chapter 11 petition against QDOS.2 On
the petition, they stated that each of their claims was
for a loan.
QDOS moved to dismiss and requested § 303(i)
damages; in the alternative, it sought abstention
under § 305. It did not dispute the petition’s
We exercise our discretion to take judicial notice of documents
electronically filed in the bankruptcy case. See Atwood v. Chase
Manhattan Mortg. Co. (In re Atwood), 293 B.R. 227, 233 n.9 (9th
Cir. BAP 2003).

2

7a
allegation that it was not paying its debts as they
came due; it focused solely on Mr. Terrigno and
alleged that he did not hold a qualifying claim because
he was an investor. It asserted that it had 12 or more
claimholders, and, thus, the involuntary petition was
not filed by three creditors as required by § 303(b).
Petitioning creditors opposed the motion.
Among other things, they argued that the grounds for
dismissal relied on disputed facts which could not be
resolved on a Civil Rule 12(b)(6) motion to dismiss.
Two days before the hearing, the bankruptcy
court issued a tentative ruling granting the motion
because Mr. Terrigno was not a qualifying petitioner
and, as a result, there were less than three qualifying
petitioning creditors. It concluded that a Rule 1003(b)
list was unnecessary because QDOS filed a motion
instead of an answer.
But then Mr. Maddox joined the involuntary
petition; the bankruptcy court set a trial for two days
later and directed each petitioning creditor to appear
personally or risk removal from the list of petitioning
creditors.
The next day, Petitioning Creditors’ counsel
filed a document stating that they were unable to
appear on less than 48 hours notice for a variety of
reasons. So, the bankruptcy court continued the trial.
Its order limited the time for additional joinders to the
petition to the following three weeks.
Six business days later, Petitioning Creditors
filed an ex parte request for a telephonic conference
on discovery matters because QDOS was unwilling to
negotiate a workable document production schedule
and refused to file a Rule 1003(b) list. QDOS opposed
the ex parte request, and the bankruptcy court
thereafter entered an order striking it.

8a
An additional delay in the hearing occurred.
And the bankruptcy court altered the consequences of
a failure to appear at the hearing from being struck
from the list of petitioning creditors to the striking of
the non- appearing petitioning creditor’s declaration.
At the eventual trial, Mr. Maddox did not
appear.
The bankruptcy court then entered a combined
memorandum decision and order. It found that QDOS
had more than 12 creditors for § 303(b)(1) purposes.
It concluded that Mr. Terrigno was not a qualifying
petitioning creditor because he was an equity holder.3
Next, it concluded that Mr. Maddox was not a
qualifying petitioning creditor for two reasons: first,
his claim was subject to a partial bona fide dispute;
and second, he failed to appear at the hearing as
ordered and, as a result, failed to meet his burden of
proof that he was a qualifying petitioning creditor.
Petitioning Creditors timely appealed.
JURISDICTION
QDOS also argued that the Wiese Family Trust and Mr.
Hayden were not appropriate petitioning creditors because it
disputed that payment on their claims was required at the time
of the involuntary petition. The bankruptcy court disagreed; it
preliminarily determined that because liability and the amount
owed were not in question, the Wiese Family Trust and Mr.
Hayden qualified as petitioning creditors. But it also allowed for
additional briefing. QDOS filed a document that agreed with the
bankruptcy court’s analysis but raised another issue; it argued
that because these entities had the right to convert their claims
to stock, they were contingent creditors and, thus, disqualified
as petitioning creditors. The bankruptcy court has not decided
this issue, and QDOS does not advance arguments related to the
qualifications of the Wiese Family Trust and Mr. Hayden on
appeal. Because resolution of this issue is irrelevant given the
basis of our decision, we do not further consider this point.

3

9a
The bankruptcy court had jurisdiction under
28 U.S.C. §§ 1334 and 157(b)(2)(A). We have
jurisdiction under 28 U.S.C. § 158(a)(3).
ISSUE
Did the bankruptcy court err when it dismissed
the involuntary petition?
STANDARD OF REVIEW
We review de novo whether a particular
procedure satisfies due process. Owens-Corning

Fiberglass Corp. v. Ctr. Wholesale, Inc. (In re Ctr.
Wholesale, Inc.), 759 F.2d 1440, 1445 (9th Cir. 1985);
Garner v. Shier (In re Garner), 246 B.R. 617, 619 (9th

Cir. BAP 2000).
We review the bankruptcy court’s conclusions
of law de novo and its conclusions of fact for clear
error. Liberty Tool, & Mfg. v. Vortex Fishing Sys., Inc.
(In re Vortex Fishing Sys., Inc.), 277 F.3d 1057, 1064
(9th Cir. 2002).
DISCUSSION
The Code overhauled the standards for
involuntary bankruptcy as they existed under the
former Bankruptcy Act of 1898; it relaxed them and
allowed an involuntary bankruptcy at an earlier point
in an entity’s economic decline. In re Kidwell, 158 B.R.
203, 212–13 (Bankr. E.D. Cal. 1993). At the same
time, it allowed for monetary remedies that
counterbalanced this new liberality. Id. at 213. The
Rules then established the procedures that a
bankruptcy court must follow in balancing the
important concerns extant when a party seeks the
involuntary bankruptcy of an unwilling debtor. In
sum, they require a speedy resolution and a full
complement of due process.
A.
The
law
governing
involuntary
petitions.

10a
Section 303 authorizes the filing of an
involuntary petition against a corporation. 11 U.S.C.
§ 303(a). When the petition is not contested, the
bankruptcy court enters an order for relief, and the
bankruptcy case proceeds. 11 U.S.C. § 303(h). But
corporations can resist the involuntary petition, and
the Code provides for standards and procedures that
govern the resulting decisional process.
The Code requires that the involuntary debtor
be in financial distress and that a sufficient number
of undisputed creditors request involuntary relief.
When an involuntary petition is contested, the
petitioning creditors must show that the involuntary
debtor is in actual financial distress; they may meet
this requirement by establishing that the involuntary
debtor is not paying its undisputed debts as they come
due. 11 U.S.C. § 303(h)(1).4 Petitioning creditors must
also show that there is sufficient desire for an
involuntary bankruptcy on the part of undisputed
creditors; in a case with fewer than 12 creditors, a
single qualified creditor suffices, but, where the
debtor has a larger creditor body, three qualified
creditors must petition for involuntary relief. 11
U.S.C. § 303(b)(1), (2). Petitioning creditors bear the
burden of proof on both of these issues. Cunningham
v. Rothery (In re Rothery), 143 F.3d 546, 548 (9th Cir.
1998).
Joinder can remedy a deficiency in the number
of petitioning creditors; and all creditors have the
right to consider joinder where the involuntary debtor
Financial distress also may be demonstrated where, within the
120 days previous, a custodian was appointed for substantially
all of the debtor’s assets. 11 U.S.C. § 303(h)(2). No one argues
that this section applies here.

4

11a
is in economic distress. Where there are fewer than
the three required petitioning creditors, the Code and
Rules allow for Civil Rule 24(a)(1) joinder. 11 U.S.C.
§ 303(c); Fed. R. Bankr. P. 1018. Thus, joinder may
remedy a defect in the number of petitioning
creditors.
In deciding the issue before it, whether joinder
could cure even a tainted initial petition, the Kidwell
court emphasized that such joinder was a matter of
right. 158 B.R. at 211. It further noted the importance
of the right to join given that an involuntary petition
may provide significant benefit to all creditors. See id.
at 212. We agree; where an entity is in true economic
distress, an involuntary filing may stop the race to the
state courthouse and the dismemberment of a debtor
through involuntary liens, level the playing field
among
unsecured
creditors,
and
otherwise
appropriately aid creditors.5 Thus, the Kidwell court
found that it is not permissible to deprive eligible
creditors of their statutory right to join in the petition
and then to dismiss for insufficiency in number of
petitioners, even if an initial petitioning creditor
misbehaved. Id. at 220.

QDOS’s request for abstention as an alternative to dismissal of
the involuntary petition evidences its fundamental
misunderstanding of the purpose of a proper involuntary
petition. It argued that because state court litigation was
pending in connection with the initial Petitioning Creditors’
claims, the involuntary bankruptcy was unnecessary and
improper. But an involuntary filing does not necessarily remove
the litigation from state court; the bankruptcy court may elect to
allow the claim to be liquidated there. Instead, an involuntary
case can help to achieve appropriate bankruptcy purposes.
Reorganization or orderly liquidation may follow.

5

12a
The Kidwell court made a compelling case for a
requirement that all claimholders receive an
opportunity to consider supporting an involuntary
petition when the debtor is in financial distress even
if there initially are too few petitioning creditors. And
in Vortex Fishing Systems, the Ninth Circuit agreed.
Vortex Fishing objected to an involuntary
petition; it disputed the sufficiency in number of
qualified petitioning creditors and also disputed that
it was in economic distress. 277 F.3d at 1065, 1070–
71. So, pending trial on both disputed issues, the
bankruptcy court ordered it to submit a list of its
creditors to the bankruptcy court, and the parties
agreed that the list could not be released without a
court order. Id. at 1070. The petitioning creditors did
not ask for pre-trial release of the list. Id. At trial, the
bankruptcy court found that the number of thenexisting petitioning creditors was insufficient, but it
also continued with the trial and determined that
Vortex Fishing was generally paying its debts as they
came due. Id. at 1063. It then dismissed the
involuntary petition. Id.
On appeal, the petitioning creditors argued,
based on Rule 1003(b), that the bankruptcy court
should have notified all creditors of the involuntary
petition, afforded them an opportunity to join, and
only then dismissed the involuntary case. Id. at 1070.
The Ninth Circuit rejected this argument.
It noted that generally when an alleged debtor
answers a petition filed by fewer than three
qualifying petitioners, asserts the § 303(b)(1) threepetitioning creditors requirement, and alleges that it
has twelve or more creditors, the bankruptcy court
“must assure that other creditors have a ‘reasonable
opportunity’ to exercise their § 303(c) statutory power

13a
to join as petitioners . . . .” Id. at 1071. But the Ninth
Circuit concluded:
We cannot say, in the face of Rule 1013(a) and
of the omission of the appellants to ask that the
creditor list be released, that the Bankruptcy
Court abused its discretion when it proceeded
to determine the merits of the contested
involuntary petition—i.e. whether Vortex was
generally paying its debts as they came due—
without requiring specific notification of other
creditors.
Id. at 1071–72.
Vortex Fishing, thus, underscores that all
creditors must have a reasonable opportunity to join
in an involuntary petition.6 It was unnecessary there
only because, in a consolidated hearing, the
bankruptcy court correctly found that the involuntary

To that extent, § 303(j) and Rule 1017 are enlightening. Section
303(j) governs dismissal of an involuntary petition and requires
notice to all creditors when dismissal follows petitioner motion,
or petitioner and debtor consent, or is based on want of
prosecution. 11 U.S.C. § 303(j). Rule 1017 provides that such
dismissal cannot occur before a hearing and notice to all
creditors pursuant to a list provided by the debtor or other
knowledgeable entity. Fed. R. Bankr. P. 1017(a). The First
Circuit BAP concluded in an unpublished decision that “Rule
1017 applies in the context of a motion to dismiss an involuntary
petition for failure to obtain the requisite number of petitioning
creditors.” Banco Popular de Puerto Rico v. Colon (In re Colon),
BAP No. PR 07-053, 2008 WL 8664760, at *7 (1st Cir. BAP Nov.
21, 2008). As a result, § 303(j) and Rule 1017 supported its
conclusion that a bankruptcy court erred when it dismissed an
involuntary petition on an insufficient number of creditor’s
ground without “at least giving all creditors notice and the
opportunity for a hearing.” Id. at *8.

6

14a
debtor was not in financial distress; joinder, thus,
would have been a meaningless endeavor.
The decisional process in relation to a
contested involuntary petition must be prompt but
also consistent with Rule 1018 and the Civil Rules it
incorporates. While the standards for allowance of an
involuntary petition are clear, the procedure for
making a qualification determination is more
meandering.
An involuntary debtor may initially contest the
involuntary petition through a Civil Rule 12(b)(6)
motion, but where a trial is required for resolution it
must answer and file the list required by Rule
1003(b). Rule 1011 provides that the debtor may
contest an involuntary petition, and it expressly
allows the alleged involuntary debtor to file a Civil
Rule 12 motion before answering. Fed. R. Bankr. P.
1011(a), (b), and (c). Thus, Civil Rule 12(b)(6) applies
in a contested involuntary situation just as it does
generally; the motion challenges the sufficiency of the
allegations in the involuntary petition and “may be
based on either a ‘lack of a cognizable legal theory’ or
‘the absence of sufficient facts alleged under a
cognizable legal theory.’ ” Johnson v. Riverside
Healthcare Sys., 534 F.3d 1116, 1121 (9th Cir. 2008)
(citation omitted). The court accepts factual
allegations as true but disregards legal conclusions.
Ashcroft v. Iqbal, 556 U.S. 662, 678–79 (2009). It then
determines if the remaining factual allegations,
construed in the light most favorable to the nonmoving party’s favor, state a facially plausible claim
for relief. Id. at 679; see also Bell Atl. Corp. v.
Twombly, 550 U.S. 544 (2007).
In many cases, a bankruptcy court will not be
able to dismiss an involuntary case solely on a motion

15a
to dismiss. If the petitioning creditors plausibly allege
that they have met the standards, the motion must
fail, and the involuntary debtor must answer.7
When an involuntary debtor files a Civil Rule
12(b)(6) motion in connection with a contested
involuntary bankruptcy, Rule 1011 extends the time
for the answer as permitted in Civil Rule 12(a). Fed.
R. Bankr. P. 1011(c). Civil Rule 12(a) provides that
where a court denies a Civil Rule 12(b) motion or
postpones its determination until trial, the answer
must be filed within 14 days of the court’s action. Fed.
R. Civ. P. 12(a)(4)(A). So, once a trial is required to
resolve issues in a contested involuntary proceeding,
the involuntary debtor must answer within 14 days.
And, if the debtor asserts that it has more than
12 creditors in its answer, it must comply with Rule
1003(b) and concurrently file the required creditor
list. Fed. R. Bankr. P. 1003(b). Rule 1003(b) serves
two purposes. It implements, in part, § 303(c)’s
joinder provisions. In re Vortex Fishing Sys., Inc., 277
F.3d at 1071. And it provides the mechanism by which
an alleged debtor substantiates its assertion that it
has more than 12 qualifying creditors and returns the
burden to petitioning creditors. In re Clignett, 567
B.R. 583, 587 (Bankr. C.D. Cal. 2017) (“[A] debtor
cannot merely state that [it] has more than twelve
creditors in [its] motion to dismiss.”).
In summary, if resolution of a contested
involuntary proceeding requires a trial, there is no
procedural path that allows the alleged involuntary
Rule 1018 also allows for summary judgment. But just as in
ordinary civil litigation, the court may not grant summary
judgment if genuine disputes of material fact exist or further
discovery is warranted.

7

16a
debtor to leap over the requirement that it answer
and, if appropriate given its answer, file the creditor
list mandated by Rule 1003(b). The mere fact that the
involuntary debtor initiated its opposition through a
Civil Rule 12(b)(6) motion delays, but does not
invariably negate, the requirement of answer and
creditor list.
The requirement that contested involuntary
petitions be resolved quickly must be read in tandem
with the fact that Civil Rule 26 governs the pre-trial
process and that discovery is available under Civil
Rules 7028 through 7037. Rule 1013(a) directs
bankruptcy courts to “determine the issues of a
contested petition at the earliest practicable time and
forthwith enter an order for relief, dismiss the
petition, or enter any other appropriate order.” Fed.
R. Bankr. P. 1013(a). The “earliest practicable time”
is when the bankruptcy court has “sufficient
information to resolve the conflict” before it. Hayes v.

Rewald (In re Bishop, Baldwin, Rewald, Dillingham
& Wong, Inc.), 779 F.2d 471, 475 (9th Cir. 1985).

Often the bankruptcy court will acquire this
information at trial.
Where trial is required to adjudicate an
involuntary petition, Rule 1018 incorporates many
procedural Rules and expressly provides that
references to adversary proceeding therein include a
reference to a proceeding to contest an involuntary
petition. Fed. R. Bankr. P. 1018. Several of the
incorporated rules are critical to providing the parties
with the information they need to either contest or
defend the involuntary petition at trial.
First, Rule 1018 incorporates Rule 7026 which
makes the requirements of Civil Rule 26 applicable.
Id. The initial notice requirements of Civil Rule 26

17a
mandate pre-discovery disclosure of individuals likely
to have relevant discoverable information and
production of documents supporting claims or
defenses. Fed. R. Civ. P. 26(a)(1)(A)(i) & (ii). Rule
1003(b) works in tandem with this requirement and,
because it mandates the creditor list when the
involuntary debtor answers, actually accelerates
disclosure on this topic. But, even if Rule 1003(b) did
not require early submission of the creditor list, there
can be no doubt that a list of creditors or the provision
of documents containing creditor information would
be a required Civil Rule 26(a)(1)(A) disclosure where
there is a dispute regarding the number of creditors.
Civil Rule 26 also affects the pace of resolution
unless the bankruptcy court is immediately proactive.
Rule 1018 allows for all typical discovery as it
incorporates Civil Rules 7028 through 7037. Fed. R.
Bankr. P. 1018. But such discovery cannot proceed
until the parties confer as required by Civil Rule 26(f)
or as otherwise agreed by the parties or ordered by
the bankruptcy court. Fed. R. Civ. P. 26(d)(1). To
achieve the prompt resolution required by Rule
1013(a), the bankruptcy court may establish a
discovery schedule that removes the limitations
imposed by Civil Rule 26(d)(1).
In short, Rule 1018 makes clear that resolution
of a contested involuntary petition should proceed
with the discovery and disclosures typical in an
adversary proceeding, but Rule 1013(a) mandates
that the process move speedily.
B.
The bankruptcy court erred when it
imposed § 303(b)(1)’s numerosity
requirement, did not require an answer,
failed to allow for appropriate discovery,
and dismissed the case before allowing

18a
appropriate notice and a meaningful
opportunity for joinder to all creditors.
As noted, a Civil Rule 12(b)(6) motion assumes
the truth of the allegations in the operative
documents, here the involuntary petition. And the
involuntary petition in this case does not allege that
QDOS had 12 or more qualifying creditors. As a
result, § 303(b)(1) does not facially apply and there
only needed to be at least one qualifying petitioning
creditor. The bankruptcy court correctly recognized
that it could not resolve the issues without a trial.
The bankruptcy court, thus, accepted matters
extrinsic to the pleadings.8 In support of its assertion
that it had more than 12 creditors, QDOS submitted
Richard Gillam’s, QDOS’s CEO, declaration, which
baldly stated: “QDOS, Inc. has twelve or more entities
or individuals which would be classified as
claimholders pursuant to 11 U.S.C. §§ 101(5), 303.” At
no time did QDOS provide additional information
about its creditors. Petitioning Creditors argued to
the bankruptcy court and on appeal that this generic
statement is insufficient. We agree.
The bankruptcy court erred when it proceeded
to trial without requiring QDOS to answer and file its
Rule 1003(b) list. When Petitioning Creditors asked
the bankruptcy court to enforce the Rule 1003(b)
requirement, it declined to do so because, it reasoned,
Rule 1003(b) applies to answers, not motions to
dismiss. This reliance was misplaced.
The bankruptcy court stated at one point that it was converting
the proceeding to a summary judgment, but we read this as
shorthand. The bankruptcy court correctly determined that
triable issues existed; thus, trial was required, and summary
adjudication was impossible.

8

19a
We acknowledge that some courts find a “gap”
in the Rules related to Rule 1003(b). In re Kidwell,
158 B.R. at 209. Put simply, an alleged debtor is
allowed to raise the defense of a failure to comply with
the three-petitioner requirement by either a motion to
dismiss under Civil Rule 12 or by an answer, but Rule
1003(b) only facially applies when the defense is
raised by answer, not motion. Id. The “sensible
solution”, concluded Kidwell, is to apply the same
procedure when the defense is raised by motion. Id. at
210. If there is a gap, we completely agree with
Kidwell.
But if Rule 1011 is read in full and one
recognizes that Rule 1018 treats contested
involuntary petitions as adversary proceedings, there
is no gap. Rule 1011 allows the filing of a Civil Rule
12 motion, but Rule 1018 incorporates Civil Rule 8
and requires the assertion of defenses through an
answer when Civil Rule 12(b)(6) relief is not available.
And Rule 1011(c) states that filing a Civil Rule 12
motion extends the time for filing a responsive
pleading or answer. Finally, Civil Rule 12(a)(4)(A)
provides that the answer is due 14 days after the
court denies a Civil Rule 12(b)(6) motion or postpones
disposition until after trial.
So here, once the bankruptcy court implicitly
denied QDOS’s Civil Rule 12(b)(6) motion and
actually postponed decision until trial, QDOS was
required to answer within 14 days and to accompany
its answer with the list required by Rule 1003(b) as it
asserted that it had more than 12 creditors.9
And, again, QDOS was also required to provide Civil Rule
26(a)(1) initial disclosures even before receiving a discovery

9

20a
The bankruptcy court erred when it proceeded
to trial and dismissed the involuntary petition
without allowing Petitioning Creditors a reasonable
opportunity for discovery. The bankruptcy court
denied Petitioning Creditors any reasonable
opportunity for discovery. First, discovery is generally
inappropriate while a Civil Rule 12(b)(6) motion is
pending. At some point, Petitioning Creditors
informally attempted to confer with QDOS to obtain
discovery; this conferral is required by Civil Rule
26(d)(1). QDOS was not cooperative. But the
bankruptcy court penalized the Petitioning
Creditors—it erroneously asserted that discovery
should have commenced before it took any action on
the pending Civil Rule 12(b)(6) motion, and it declined
a request for a telephonic discovery conference six
business days after it set the matter for trial. The
bankruptcy court never relieved the parties from the
requirements of Civil Rule 26(d)(1) or otherwise
regulated discovery. And it limited the time for
joinder in the petition to three weeks following its
implicit denial of the motion to dismiss and its
conclusion that a trial was necessary. The Petitioning
Creditors could not obtain discovery allowing them to
solicit joinders before the deadline for joinder passed
unless the bankruptcy court shortened time; but it

request. As these disclosures require the name and contact
information for all parties with discoverable information and
identification of all documents supporting all claims—here that
more than 12 creditors existed—it is impossible to assume that
QDOS’s compliance with these rules would not have identified
its creditors before trial if QDOS acted as required by Rule 1018.
Fed. R. Civ. P. 26(a)(1)(A)(i)–(ii).

21a
declined their requests for assistance in obtaining
discovery.
We also acknowledge that in some regards the
errors in relation to discovery may be harmless. The
Petitioning Creditors dispute that QDOS has more
than 12 creditors, but we have evidence in the record
of 11 creditors exclusive of Mr. Terrigno and Mr.
Maddox.10 It seems likely that more exist. And QDOS
should have provided the critical information as to the
identity of creditors with the required answer or as an
initial disclosure. Here the failure to allow discovery
as allowed and conditioned by Rule 1018 merely
compounded an existing problem. Petitioning
Creditors could not remedy these defects through the
discovery allowed by Rule 1018.
We acknowledge that the bankruptcy court
correctly emphasized Rule 1013(a)’s requirement that
bankruptcy courts decide the merits of a contested
petition at the earliest practicable time. But Rule
1013(a) must be read in concert with Rule 1018. Rule
1013(a)’s expeditious trial requirement cannot negate
Rule 1018 on the grounds that there is no time for
discovery.
The bankruptcy court erred when it did not
allow all creditors a meaningful opportunity to join in
the involuntary petition. In this case, the bankruptcy
court did not provide for reasonable notice to all of
QDOS’s creditors and, thus, it denied them their
statutory right to join in the involuntary petition. The
bankruptcy court intimated, at one point, that other
creditors had a “reasonable opportunity” to join
Five creditors other than the Petitioning Creditors filed proofs
of claim, and the Petitioning Creditors requested judicial notice
of another four recent judgments against QDOS.

10

22a
because the petition had been pending for more than
five weeks on a public docket. The mere pendency of
a bankruptcy petition, however, is not sufficient
notice to creditors. In re Vortex Fishing Sys., Inc., 277
F.3d at 1071 (“[Rule 1003(b)], which functions to
provide an opportunity to moot a defense of
insufficiency in the number of petitioners, is needed
because all creditors do not necessarily receive notice
of an involuntary case until there is an order for relief
adjudicating the merits of the petition in favor of the
petitioning creditors.”).
And while the bankruptcy court allowed
Petitioning Creditors a limited opportunity to solicit
additional creditors after it set the matter for
hearing,11 Petitioning Creditors had no list of
creditors to solicit. Again, they had no Rule 1003(b)
list, no initial disclosures, and no reasonable
opportunity to conduct discovery. As a result, we
conclude that the bankruptcy court erred when it
dismissed the involuntary petition based on a §
303(b)(1) infirmity without affording other creditors
an opportunity to join the involuntary petition
through Rule 1003(b) notice or Petitioning Creditor
solicitation.
Vortex Fishing Systems, Inc. does not stand for
a contrary result. First, the alleged debtor filed a
sealed list of creditors but the petitioning creditors
never sought access to it and only raised Rule 1003(b)
on appeal. Here, Petitioning Creditors have
consistently sought access to a list of creditors or
11 The temporal limitation on the time for joinder (three
additional weeks) also raises an issue. By statute, creditors can
join an involuntary petition at any time before “the case is
dismissed or relief is ordered.” 11 U.S.C. § 303(c).

23a
discovery on this topic. Second, the Vortex Fishing
bankruptcy court determined the merits of the
contested petition and concluded that Vortex Fishing
was paying its debts as they came due. And the Ninth
Circuit affirmed that finding. As a result, it was
immaterial whether there was a sufficient number of
petitioning creditors because, even if there were,
entry of an order for relief would have been
inappropriate. 11 U.S.C. § 303(h)(1). Here, the
bankruptcy court made no findings about whether
QDOS was paying its debts as they came due; QDOS
effectively admitted that it was not.12 Thus, it
deprived creditors of the joinder right mandated by
Vortex Fishing.
The only creditor information that Petitioning
Creditors had as to the QDOS creditor body came
from a declaration that came too late for solicitation
QDOS never disputed this point in its Civil Rule 12(b)(6)
motion and when questioned on appeal side-stepped inquiry by
saying that other creditors were working with it. Petitioning
Creditors allege financial distress, and the claims docket in the
involuntary case supports this conclusion. A few creditors found
the case and filed claims; almost all evidence that QDOS was not
regularly paying its debts. The IRS and Employment
Development Department filed substantial claims for unpaid
and delinquent tax obligations; these claims evidenced interest
accruals, penalties, and tax liens. In the EDD’s case, they
alarmingly were filed on account of unpaid employee
withholdings. Another claim evidenced a judgment and lien from
2017. AT&T filed a claim that evidenced arrearages, including
some more than 90 days past due. And even more dispositive of
a broad-based failure to pay debts as they come due and financial
distress is a February 22, 2018 email from the QDOS principal
that is attached to the Wiese Family Trust proof of claim. See
Claim No. 6 at 13–15. The Petitioning Creditors also requested
judicial notice of several recent judgments against QDOS.
12

24a
and named no one, trial testimony that asserted that
it had 40 to 50 creditors but did not name them, and
information obtainable from the claims docket and
litigation databases showing judgments against
QDOS. Both Rule 1003(b) and Ninth Circuit authority
require more, especially given that QDOS never
argued that it was paying its undisputed debts as
they came due.
C.
The bankruptcy court did not err in
concluding that Mr. Maddox was not
entitled to be a petitioning creditor at
that time.
The bankruptcy court concluded that Mr.
Terrigno and Mr. Maddox did not qualify as
petitioning creditors. On appeal, Petitioning
Creditors only discuss Mr. Maddox’s disqualification.
To be a petitioning creditor, an entity must
hold a claim that is not contingent “as to liability or
the subject of a bona fide dispute as to liability or
amount . . . .” 11 U.S.C. § 303(b)(1). The bankruptcy
court concluded that Mr. Maddox did not qualify as a
petitioning creditor for two reasons: his claim was
subject to a bona fide dispute as to the amount of the
claim, and he did not appear in person at the trial. We
start, and end, with the latter.13
The former reason is an unsettled area of law. Pre-BAPCPA,
the Ninth Circuit had held that the undisputed portion of a debt
could qualify under § 303(b)(1) as not subject to a bona fide
dispute. Focus Media, Inc. v. Nat’l Broad. Co. (In re Focus Media,
Inc.), 378 F.3d 916, 926 (9th Cir. 2004). But in 2005 Congress
amended § 303 and added the phrase “as to liability or amount”
after “bona fide dispute.” In re Honolulu Affordable Hous.
Partners, LLC, No. 15-00146, 2015 WL 2203473, at *2 (Bankr.
D. Haw. May 7, 2015) (Faris, J.). Some courts have found that
the 2005 amendments overruled the Ninth Circuit’s decisions.
13

25a
Petitioning Creditors raise a variety of
arguments on appeal. But, crucially, they conceded at
oral argument that the record contains no
explanation for Mr. Maddox’s failure to appear. He
just did not show up.
The bankruptcy court had the right to control
the proceedings before it. QDOS disputed that Mr.
Maddox properly qualified as a petitioning creditor; it
had the right to cross-examine him. And, the
bankruptcy court’s amended scheduling order was
clear about the consequences for non- appearance: the
bankruptcy court would strike any and all
declarations signed by that petitioning creditor. At
issue, in the main, was whether Mr. Maddox held an
undisputed claim. And the dispute centered on
whether his loan was usurious. We acknowledge that
Mr. Maddox filed a proof of claim that temporarily,
and far from definitively, waived disputed interest.
But the bankruptcy court and QDOS had every right
to question him on this point. Thus, the bankruptcy
E.g., id.; see Mont. Dep't of Revenue v. Blixseth, 581 B.R. 882,

898 (D. Nev. 2017) (citing cases). Two circuit courts have agreed
with this line of reasoning. Mont. Dep’t of Revenue, 581 B.R. at
898-89. But other bankruptcy courts (and Collier) have
concluded otherwise. Id. at 899–900; 2 Collier on Bankruptcy ¶
303.11[2] (Richard Levin & Henry J. Sommer eds. 16th ed.
2019).
Although neither we nor the Ninth Circuit have decided the
matter, the Ninth Circuit heard oral argument on this issue and
took the matter under submission on August 26, 2019. See Mont.
Dep’t of Revnue v. Blixseth, Case No. 18-15064, Dkt. No. 47
(submitting appeal after oral argument on August 26, 2019).
Because the bankruptcy court excluded Mr. Maddox’s claim for
an alternate reason, and we affirm on that ground, we need not
resolve this well-ventilated question.

26a
court concluded that Mr. Maddox had not carried his
burden of proof that he was a qualifying petitioning
creditor. The bankruptcy court did not err in so
deciding.14
CONCLUSION
Based on the foregoing, we REVERSE and
REMAND for further proceedings.

We leave to the bankruptcy court’s discretion, on remand,
whether Mr. Maddox may revive his participation in the
involuntary proceedings by, for instance, appearing at future
hearings to testify or by affirmatively and absolutely waiving the
disputed portions of his claim. See 2 Collier on Bankruptcy ¶
303.11[2] (“Of course, as a practical matter, the prudent creditor
will take the suggestion loudly whispered by some courts and
simply assert the undisputed, non-contingent portion of its
claim.” (footnotes omitted)). Unless, of course, in the interim, the
Ninth Circuit determines that he need not do so.
14

27a
Appendix C
UNITED STATES BANKRUPTCY COURT
CENTRAL DISTRICT OF CALIFORNIA
SANTA ANA DIVISION
FILED & ENTERED
OCT 31 2018
CLERK U.S. BANKRUPTCY
COURT
Central District of California
BY bolte DEPUTY CLERK
In re:
QDOS, Inc

Case No.: 8:18-bk11997-MW
CHAPTER 11
MEMORANDUM
DECISION AND
ORDER

Hearing Date: October
17, 2018
Time: 9:00 a.m.
Courtroom: 6C
Debtor(s).

Damian D. Capozzola, Esq. and Timothy R. Laquer,
Esq. of Law Offices of Damian D. Capozzola for
Debtor and Movant QDOS, Inc.

28a
Patrick M. Costello, Esq. of Vectis Law for
Petitioning Creditors.
WALLACE, J.
This matter is before the Court on a corporate
debtor’s motion to dismiss an involuntary chapter 11
petition filed against it by three, and later four,
alleged creditors. The Court has subject matter
jurisdiction over this proceeding pursuant to 28
U.S.C. § 1334 and General Order 13-05, filed July 1,
2013, of the United States District Court for the
Central District of California. This is a core
proceeding under 28 U.S.C. § 157(b)(2)(A).
FACTUAL BACKGROUND AND PROCEDURAL
HISTORY
Petitioning creditors Carl Wiese, as trustee of
the Wiese Family Trust dated as of October 31, 2013
(“Mr. Wiese”), Felice Terrigno (“Mr. Tarragon”) and
Matthew Hayden (“Mr. Hayden”) (collectively, Mr.
Wiese, Mr. Tarragon and Mr. Hayden shall be
referred to as the “Original Petitioning Creditors”)
filed an involuntary chapter 11 petition against
QDOS, Inc. (aka Desksite) (“QDOS”) on May 31, 2018.
QDOS filed a Notice of Motion and Motion to Dismiss
Involuntary Petition and Request for Costs, Fees and
Damages (Docket No. 7) on June 22, 2018 (the
“Motion”) pursuant to Federal Rule of Bankruptcy
Procedure 1011 (incorporating by reference Federal
Rule of Civil Procedure 12 and more particularly Rule
12(b)). In the Motion, QDOS contests the involuntary
petition on the grounds that (1) the Original
Petitioning Creditors fail to qualify under 11 U.S.C. §
303(b)(1) as the kind of creditors who are entitled to
file an involuntary petition and (2) the involuntary
petition was filed in bad faith.

29a
The Motion was set for hearing on August 8,
2018 at 9:00 a.m. In advance of the hearing, the Court
published a tentative ruling to grant the Motion and
dismiss the case on the ground that Mr. Terrigno was
not a qualified petitioning creditor and, therefore,
that too few qualified petitioning creditors existed to
support the petition. At approximately 1:00 p.m. on
August 6, 2018, less than 48 hours prior to the
scheduled hearing, alleged creditor Jim Maddox filed
a Joinder in Involuntary Petition, Docket No. 27,
thereby joining in the involuntary petition against
QDOS. (Mr. Maddox together with the Original
Petitioning Creditors shall be referred to as the
“Petitioning Creditors.”)
In view of this development, the Court
continued the hearing on the Motion to August 10,
2018 at 10:00 a.m. and ordered that it be an
evidentiary hearing in the nature of a trial and that
the Petitioning Creditors personally appear at such
hearing. Counsel for the Petitioning Creditors
complained in a letter to the Court dated August 9,
2018 (Docket No. 38) that Mr. Terrigno, Mr. Maddox
and Mr. Wiese were all out of state and unavailable
to attend on August 10. Based upon the unavailability
of all Petitioning Creditors except Mr. Hayden, the
Court continued the evidentiary hearing for a period
of one month to September 10, 2018 and again
ordered all Petitioning Creditors to attend the
September 10 hearing in person and be subject to
cross-examination. (Based upon supplemental
pleadings filed by the parties and evidence actually
introduced, the Court deems the pleadings to conform
to the evidence and proof and therefore treats the
Motion as addressing itself to the Petitioning

30a
Creditors and not merely the Original Petitioning
Creditors.)
Following the rescheduling of the evidentiary
hearing to September 10, 2018, Mr. Terrigno filed a
Supplemental Declaration of Felice Terrigno Re
Motion to Dismiss, Docket No. 48, filed August 22,
2018, alleging various reasons why he should qualify
as a petitioning creditor and also informing the Court
that, notwithstanding the Court’s order, he would not
be appearing at or attending the September 10, 2018
evidentiary hearing. Mr. Maddox filed a similar
declaration (Docket No. 49, filed August 23, 2018),
advising that he too would not be attending the
September 10 evidentiary hearing.
Mr. Terrigno and Mr. Maddox each failed to
appear at the evidentiary hearing with respect to the
Motion on September 10, 2018. However, due to
certain unfortunate ambiguities in the Court order
setting the evidentiary hearing, counsel for QDOS
appeared at one time and counsel for the Petitioning
Creditors appeared at a different time, leading the
Court to continue the evidentiary hearing once again,
this time to October 17, 2018. Once again, each
Petitioning Creditor was ordered to appear at the
hearing so that he might be cross-examined by
QDOS’s counsel regarding the contents of
declarations made by him allegedly supporting the
contention that he was a qualified petitioning creditor
under applicable bankruptcy law.
The Court had previously ordered that if a
Petitioning Creditor failed to appear at the October
17, 2018 evidentiary hearing, any and all declarations
filed by such Petitioning Creditor would be stricken.
For a third time, Mr. Maddox failed to appear after
being ordered to do so by this Court. In a transparent

31a
effort to avoid the effect of the striking of Mr.
Maddox’s declarations, Mr. Maddox filed Proof of
Claim 7-1 on September 26, 2018. In this cagilydrafted document, Mr. Maddox does not actually
assert how much he is owed by QDOS; he merely
states that he is owed “not less than $220,000.00.” He
also asserts in the Proof of Claim that he has
eliminated any claim for interest. (QDOS had
previously argued that the loan Mr. Maddox made to
QDOS was usurious and that therefore the claim was
in bona fide dispute.) By reason of Mr. Maddox’s
failure to appear for a third time at an evidentiary
hearing after being ordered to do so by this Court, the
Court determines that QDOS’s due process rights
were violated and that QDOS was prejudiced by its
inability to cross-examine Mr. Maddox under oath
regarding his claim and his alleged status as a
qualified petitioning creditor.
REQUIREMENTS FOR A VALID INVOLUNTARY
BANKRUPTCY PETITION
11 U.S.C. § 303(b)(1) provides in relevant part
that “[a]n involuntary case against a person is
commenced by the filing with the bankruptcy court of
a petition under chapter 7 or 11 of this title ꟷ (1) by
three or more entities, each of which is . . . a holder of
a claim against such person that is not contingent as
to liability or the subject of a bona fide dispute as to
liability or amount . . . if such noncontingent,
undisputed claims aggregate at least $15,775 more
than the value of any lien on property of the debtor
securing such claims held by the holders of such
claims.” (Boldfaced type added by the Court.)
11 U.S.C. § 303(b)(2) sets forth a separate rule
that governs when there are fewer than 12 such
holders. At the evidentiary hearing, Richard Gillam

32a
(“Mr. Gillam”), QDOS’s chief executive officer,
testified that QDOS has between 40 and 50 creditors
holding undisputed claims.1 Thus, 11 U.S.C. §
303(b)(2) is inapplicable here.
Petitioning Creditors bear the burden of
proving all the statutory requirement elements of 11
U.S.C. § 303(b)(1). If they meet this burden, the
burden of proof then shifts to the alleged debtor to
show that there is a dispute as to a material fact. If
there is a genuine issue of material fact that bears
upon the debtor’s liability or amount of the claim,
then the petition must be dismissed. Laxmi Jewel Inc.

v. C&C Jewelry Mfg., Inc. (In re C&C Jewelry Mfg.,
Inc.), BAP Nos. CC-08-1190-HMoMk, CC-08-1267-

HMoMk, 2009 Bankr. LEXIS 4517 at *21-22 (B.A.P.
9th Cir., April 14, 2009) (unpublished but cited for
persuasive value).
A. The Status of Mr. Terrigno as a Qualified
Petitioning Creditor.
Two sets of subscription documents were
transmitted to Mr. Terrigno with respect to his
investment in QDOS: subscription documents for the
purchase of QDOS common stock2 and subscription
documents (a Participation Agreement) for the
making of a loan to QDOS.3 Mr. Terrigno executed the
QDOS common stock subscription agreement,
thereby making a $60,000 investment in QDOS
common stock, and returned it to QDOS.4
1

Reporter’s Transcript (“R.T.”) at 97-98.

2

Exhibit 30.

3

Exhibit U.

4

Exhibit 29

33a
Mr. Terrigno testified that he thought he was
making a loan to QDOS when he executed
subscription documents, not buying common stock.5
The Court determines that such testimony is not
credible. Mr. Terrigno is a graduate of West Point and
has a graduate degree in Business from Rice
University. The Court concludes that Mr. Terrigno
knew exactly what he was buying when he sent in his
$60,000 – and even if he did not, the fact of the matter
is that he bought common stock, not a QDOS
promissory note.
Petitioning Creditors make much of the fact
that Mr. Gillam later sent Mr. Terrigno an email on
February 27, 2018 stating that “there is zero debate
nor question on our side that you’re owed $60k.”6
However, Mr. Gillam testified that he prepared the
February 27 email in haste, without actually checking
the QDOS records to see if Mr. Terrigno was a creditor
ora shareholder and taking him at his word that he
was a creditor.7 The Court finds Mr. Gillam’s
testimony credible in this regard, noting that the
emails show that there is only a 54 minute timespan
between the transmission of Mr. Terrigno’s email
inquiry and Mr. Gillam’s email reply.
The Court concludes that Mr. Terrigno is not a
qualified petitioning creditor under 11 U.S.C. §
303(b)(1) because he holds an interest, namely, QDOS
common stock, not a claim.

5

R.T. at 47.

6

Exhibit P at its Exhibit B.

7

R.T. at 107-110.

34a
B. The Status of Mr. Maddox as a Qualified
Petitioning Creditor.
Unlike the case of Mr. Terrigno, there is no
question that Mr. Maddox is a creditor, not an
interest holder. Rather, the dispute between QDOS
and the Petitioning Creditors revolves around
whether Mr. Maddox holds an undisputed claim or,
alternatively, a claim that is “the subject of a bona
fide dispute as to liability or amount . . .” within the
meaning of 11 U.S.C. § 303(b)(1). QDOS contends that
the loan made by Mr. Maddox is usurious, and
therefore that the interest charges on the loan cannot
be lawfully collected under California law. Petitioning
Creditors argue that even if the loan is usurious, only
interest is cancelled, not principal, and the principal
portion of the loan is not subject to any bona fide
dispute as to liability or amount.
Although the plain language of the statute (i.e.,
11 U.S.C. § 303(b)(1)) as well as the legislative history
is about as clear as it can possibly be, a surprising
number of courts, both before and after the enactment
of the BAPCPA amendments to section 303(b)(1) ꟷ
and the Collier on Bankruptcy treatise ꟷ have
reached the conclusion that a claim that is partially
disputed as to amount ꟷ as the Maddox claim is here
ꟷ is somehow not a claim that is “the subject of a bona
fide dispute as to liability or amount . . .” within the
meaning of 11 U.S.C. § 303(b)(1).8
If a claim is disputed as to liability, then the
entire amount of the claim is disputed.9 If a claim is
8

See 2 Collier on Bankruptcy ¶ 303.11[2] and cases cited therein.

If 11 U.S.C. § 303(b)(1) had not used the words “or amount,” it
might be plausible to contend that a claim where liability was

9

35a
disputed as to “amount,” this implies that less than
the entire amount is disputed. If the rule were
otherwise – that is, if the entire amount had to be
disputed to make the claim disputed as to amount –
then the word “amount” in the statute would be
redundant because it would mean the same thing as
“liability.” In construing a statute, a federal court is
obliged to give effect, if possible, to every word
Congress used. Reiter v. Sonotone Corp., 442 U.S.
330, 339 (1979); Lyon v. Chase Bank United States,
N.A., 656 F.3d 877, 890 (9th Cir. 2011) (emphasis
added). This is best done by interpreting a dispute as
to liability as a dispute over the entirety of the claim
and a dispute as to amount as a dispute only over a
portion of the claim.
Additionally, the legislative history shows that
from the inception, Congress intended that a bona
fide dispute as to either liability or the amount of a
claim be sufficient to disqualify the creditor holding
such claim from qualifying as a petitioning creditor in
an involuntary case. Senator Max Baucus made the
following statement found in the Congressional
Record with respect to 1984 amendments to the
Bankruptcy Code of 1978:
Mr. President, my amendment is designed to
correct what I perceive to be an unintended
inequity in the law of involuntary bankruptcies
disputed as to only a portion of the claim is a claim disputed as
to liability. The addition of the words “or amount” would seem to
justify – for purposes of avoiding the assignment of the same
meaning to different terms – treating a dispute as to liability as
a dispute over the entirety of the claim (i.e., the entire amount)
and a dispute as to amount as a dispute over a portion of the
claim.

36a
. . . The problem can be explained simply. Some
courts have interpreted section 303’s language
on a debtor’s general failure to pay debts as
allowing the filing of involuntary petitions and
the granting of involuntary relief even when
the debtor’s reason for not paying is a
legitimate and good faith dispute over his or
her liability. This interpretation allows
creditors to use the Bankruptcy Code as a club
against the debtors who have bona fide
questions about their liability, but who would
rather pay up than suffer the usual stigma of
involuntary bankruptcy proceedings. My
amendment would correct this problem. Under
my amendment, the original filing of an
involuntary petition could not be based on
debts that are the subject of a good-faith
dispute between the debtor and his or her
creditors. In the same vein, the granting of an
order of relief could not be premised solely on
the failure of a debtor to pay debts that were
legitimately contested as to liability or amount.
I believe that this amendment, although a
simply [sic] one, is necessary to protect the
rights of debtors and to prevent the misuse of
the bankruptcy system as a tool of coercion.10
(Underscoring added by the Court.)

Bankruptcy Reform Amendments: A Legislative History of the
Bankruptcy Amendments and Federal Judgeship Act of 1984,
Public Law 98-353 (1992), D. Bernard, E.M. Wypinski Reams,
A.N.
Resnick,
downloaded
from
10

https://heinonline.org/HOL/Print?collection=leghis&handle=hei
n.bank/banrefam0010&id=646.

37a
Thus, from at least the time of the 1984
amendments to the Bankruptcy Code, it was or
should have been clear from the legislative history
quoted above that a legitimate dispute as to either
liability or amount (“amount” meaning something
less than the full amount of the claim, because a
dispute as to the full amount of a claim is a dispute as
to liability) was sufficient to disqualify a claim holder
from being a petitioning creditor. Certain courts did
not reach this result and determined that a holder of
a partially disputed claim could still qualify as a
petitioning creditor. If any further proof were needed
to show that this conclusion was incorrect, such proof
came in the form of the BAPCPA amendments to
section 303, which added the words “as to liability or
amount” to the statute. Nevertheless, some courts
persist in reading the words “or amount” out of the
statute despite the illogic of this interpretation.11
The magnitude of a particular dispute is not
necessarily related to whether such dispute is over
liability or amount. If the magnitude of a dispute is
proportional to the amount of dollars at stake, a
dispute over whether the amount of the claim should
be $50 million or $150 million is of greater magnitude
See 2 Collier on Bankruptcy ¶ 303.11[2] and cases cited in
footnote 34. It might be argued that a $100,000 claim that is only
disputed as to $1,000 should not be treated as a claim subject to
a bona fide dispute because that would elevate form over
substance. However, it would equally elevate form over
substance to treat a $100,000 claim that is disputed as to
$99,000 as a claim that is not subject to a bona fide dispute.
Finally, there is nothing in either the language of the statute or
the legislative history providing support for the notion that a
dispute as to amount must rise to either an absolute or a relative
level before a bona fide dispute can be found to exist.

11

38a
than a dispute over liability with respect to a $10,000
claim. Everything else being equal, and assuming
each creditor would like to use the bankruptcy system
as a tool of coercion, the creditor holding the $50
million/$150 million claim would seem to have a
greater incentive to join an involuntary petition than
the creditor holding the $10,000 claim. It is folly to
believe that a debtor automatically has more to fear
being pushed into bankruptcy by a creditor holding a
claim disputed as to liability than from a creditor
whose claim is disputed as to amount.
On an even more basic level, the proposition “a
partially disputed claim is a disputed claim” is not
only true, it is necessarily true. Its truth is not
contingent on anything, and it would be contradictory
to deny that a partially disputed claim is nonetheless
a disputed claim. The word “dispute” includes within
it various degrees, just like the term “bald.” If a
creditor sent a debtor an invoice for $1,000, and the
debtor wrote back that he owed only $600, it is
properly said that the invoice is in dispute. Equally
true, it would be palpably false to state under these
circumstances that the invoice is not in dispute. Only
under the rarest of circumstances does the resolution
of legal questions involve an inquiry into the
philosophical concept of necessary truth, yet this is
one of those rare instances because of various preBAPCPA and post-BAPCPA cases holding contrary to
the plain meaning rule, legislative history, statutory
interpretation principles and logic that a partially
disputed claim is not “a claim . . . that is . . . the subject
of a bona fide dispute as to . . . amount.”
For these reasons, the Court concludes that a
dispute as to a portion of a claim can be a bona fide
dispute as to liability or amount. The Court therefore

39a
follows the decisions of other courts reaching a similar
conclusion. Laxmi Jewel Inc. v. C&C Jewelry Mfg.,
Inc. (In re C&C Jewelry Mfg., Inc.), supra;12 In re
Rosenberg, 414 B.R. 826, 845-46 (Bankr. S.D. Fla.
2009); Reg’l Anesthesia Assocs. PC v. PHN Physician
Servs. (In re Reg’l Anesthesia Assocs. PC), 360 B.R.
466, 470 (Bankr. W.D. Pa. 2007);13 In re EuroAmerican Lodging Corp., 357 B.R. 700, 712 (Bankr.
S.D.N.Y. 2007). See also 2 Collier on Bankruptcy ¶
303.11[2] at footnote 32 and cases cited therein.
The next issue facing the Court is whether a
bona fide dispute exists as to the Maddox claim. In
order for a bona fide dispute to exist, the alleged
debtor must do more than just disagree with the
amount of the claim. Rather, the court must
determine whether there is “an objective basis for
either a factual or legal dispute as to the validity of
the debt.” In re Vortex Fishing Sys., Inc., 277 F.3d
1057, 1064 (9th Cir. 2002). The court need not
“evaluate the potential outcome of a dispute” but
must “determine whether there are facts that give
rise to a legitimate dispute over whether money is
owed, or, in certain cases, how much.” Laxmi Jewel
“The Ninth Circuit has not yet interpreted the new language
of § 303(b) and (h); however, other courts have held that an
objective legitimate dispute as to an amount owed on a
petitioning creditor’s claim is sufficient to demonstrate a bona
fide dispute and forestall a petitioning creditor from maintaining
an involuntary petition under § 303(b).” 2009 Bankr. LEXIS
4517 at *18-19.

12

“As a result of the [BAPCPA] amendment, any dispute
regarding the amount that arises from the same transaction and
is directly related to the underlying claim should render the
claim subject to a bona fide dispute.”

13

40a

Inc. v. C&C Jewelry Mfg., Inc. (In re C&C Jewelry
Mfg., Inc.), supra, 2009 Bankr. LEXIS 4517 at *21
(quoting Vortex).

The Maddox claim is based upon a promissory
note with a principal amount of $250,000 and
carrying a “loan fee” of $25,000.14 The loan’s term is
six months, so the effective per annum interest rate is
20 percent. California’s Constitution prohibits
commercial loans with rates in excess of 10 percent.
California Constitution, Article XV, Section 1.
Petitioning Creditors argue that the “loan fee”
is not interest – even though, if it is not interest, there
is no other interest required to be paid under the
promissory note – and that there are various
exceptions to the usury law that apply to this
particular loan. Petitioning creditors have not made a
sufficient showing that either of these arguments
carries the day. QDOS has cited California state case
authority indicating that loan fees are permitted
when they are “reasonable amount[s] for incidental
services, expenses or risk additional to lawful
interest,” Klett v. Security Acceptance Co., 38 Cal. 2d
770, 787 (1952) (underscoring added), and Petitioning
Creditors have in no way shown what “incidental
services, expenses or risk” would render a $25,000
loan fee reasonable on a six-month $250,000 loan. Nor
have they shown what exceptions to the usury law
would apply in this case. Clearly, the underlying facts
here give rise to a legitimate dispute over how much
money is owed.
The Court holds that a bona fide dispute exists
as to the amount of the Maddox claim, and therefore
14

Exhibit Q at its Exhibit A.

41a
that Mr. Maddox is not qualified to be a petitioning
creditor in this case.
As an alternative holding, the Court
determines that Mr. Maddox’s Proof of Claim will not
be taken into account in determining whether he has
a claim for purposes of being a qualifying petitioning
creditor. The basis for not taking Mr. Maddox’s Proof
of Claim into account is twofold: (1) his repeated
violations this Court’s orders requiring him to appear.
despite two re-schedulings of the evidentiary hearing,
and (2) violation of QDOS’s due process rights to
examine him concerning the declarations and Proof of
Claim that he filed, especially in a situation where the
Proof of Claim does not affirmatively state a sum
certain owed but instead cagily states “not less than
$220,000.“ In a nutshell, Mr. Maddox cannot be
permitted to disobey multiple Court orders requiring
his appearance at an evidentiary hearing,
consistently dodge cross-examination on pleadings he
filed in support of the contention that he is a qualified
creditor and still qualify as a petitioning creditor.
There being no probative evidence of Mr. Maddox’s
claim – all his declarations having been stricken and
his proof of claim not being taken into account –
Petitioning Creditors have failed to meet their burden
of proof and therefore the Court determines on these
alternative grounds that Mr. Maddox is not qualified
to be a petitioning creditor in this case.
C. Other Issues in the Case.
With the elimination of Mr. Terrigno and Mr.
Maddox as qualifying petitioning creditors, only two
alleged petitioning creditors remain, namely, Mr.
Wiese and Mr. Hayden. This is not a sufficient
number to satisfy the three-creditor rule of 11 U.S.C.
§ 303(b)(1). Accordingly, the Court does not need to

42a
reach, and does not reach, the issues of whether
Messrs. Wiese and Hayden are qualifying petitioning
creditors and whether the involuntary petition was
filed in bad faith.
CONCLUSION
The Court grants the parties’ requests for
judicial notice relating to the Motion.
The Court grants Debtor’s Motion. The
involuntary petition against QDOS is dismissed with
prejudice for the reasons stated above. Pursuant to 11
U.S.C. § 303(i)(1), the Court sets a hearing on
January 28, 2019 at 2:00 p.m. on the issue of whether
the Court should grant judgment against Mr. Wiese,
Mr. Hayden, Mr. Terrigno and Mr. Maddox and in
favor of QDOS for reasonable attorneys’ fees and costs
incurred by QDOS in connection with this
involuntary petition proceeding. In that connection,
QDOS’s brief is due on or before November 30, 2018;
Petitioning Creditors’ brief is due December 31, 2018;
and QDOS’s reply is due January 14, 2019.
IT IS SO ORDERED.
###

Date: October 31, 2018

s/ Mark S. Wallace
Mark S Wallace
United States Bankruptcy
Judge

